         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Audit Report




       EPA Should Reduce
       Unliquidated Obligations Under
       Expense Reimbursement Grants
       11-P-0228

       May 16, 2011
Report Contributors:                               Paul Curtis
                                                   Meg Hiatt
                                                   Alfred Falciani
                                                   Bob Evans
                                                   Carol Kwok
                                                   Denise Patten
                                                   Kevin Ross
                                                   Phil Weihrouch
                                                   Lynda Taylor




Abbreviations

DWSRF        Drinking Water State Revolving Fund
EPA          U.S. Environmental Protection Agency
ERG          Expense Reimbursement Grant
GDNR         Georgia Department of Natural Resources
NCDEHNR      North Carolina Department of Environment, Health, and Natural Resources
OIG          Office of Inspector General
SDWA         Safe Drinking Water Act
WDNR         Wisconsin Department of Natural Resources




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             11-P-0228
                                                                                                         May 16, 2011
                        Office of Inspector General


                        At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review                 EPA Should Reduce Unliquidated Obligations
The U.S. Environmental                 Under Expense Reimbursement Grants
Protection Agency (EPA)
oversees water program                 What We Found What We Found
assistance agreements. The
purpose of this audit was to           We identified $6.6 million of potentially unneeded funds that could have
determine whether EPA has              been deobligated for three ERGs awarded by EPA Regions 4 and 5
adequately monitored obligations       ($3.3 million for Georgia, $2.3 million for North Carolina, and $1.0 million
on operator certification expense      for Wisconsin). Region 4 deobligated over $3.3 million in unneeded funds
reimbursement grants (ERGs).           from the Georgia ERG and closed the grant in March 2011. According to
Our objectives were to determine:      Region 4, North Carolina signed an amendment on March 21, 2011, to
(1) the status of utilization of the   extend the project period end date to January 1, 2012, to allow it to use the
ERG funds, (2) impediments             remaining $2.3 million. Region 5 deobligated about $2.2 million from the
recipients faced in utilizing the      Wisconsin grant in February 2011. Region 5 responded that it extended the
funds and what EPA has done to         grant ending period from June 30, 2011, to December 31, 2012, to allow
facilitate reaching the target of      Wisconsin to use the remaining funds.
expending ERG funds by
December 2012, and (3) the             Since EPA began awarding ERG funds in 2001, we found that states are not
amount of ERG dollars that can         adequately utilizing ERG funds to provide training and certification to water
be deobligated.                        system operators in accordance with the requirements of the operator training
                                       and certification program. States faced numerous impediments in spending
Background                             the funds, such as staff shortages, global recession, hiring freezes, higher-
                                       priority water projects, and contractors not completing as much work as
EPA achieves clean and safe            initially proposed.
water goals by providing funds
through assistance agreements to
                                       What We Recommend What We Recommend
states, local governments, and
tribes under the water program.
                                       We recommend that the Regional Administrator, Region 4, direct the
To comply with the provisions of
                                       region’s Water Protection Division Director to deobligate the $3.3 million of
the Safe Drinking Water Act,
                                       unneeded funds for Georgia and monitor North Carolina’s spending of the
EPA awarded operator
                                       $2.3 million of remaining funds through the end of the grant period and
certification ERGs to states.
                                       deobligate any unused funds. We also recommend that the Regional
                                       Administrator, Region 5, direct that region’s Water Protection Division
For further information,               Director to continually monitor Wisconsin’s spending of the remaining funds
contact our Office of                  through the end of the grant period and deoligate any unused funds. While
Congressional, Public Affairs and      the regions responded that they disagreed with our recommendations,
Management at (202) 566-2391.
                                       Region 5 did deobligate $2.2 million (Wisconsin) and Region 4 did
The full report is at:                 deobligate $3.3 million (Georgia). However, Region 4 did not deobligate
www.epa.gov/oig/reports/2011/          $2.3 million (North Carolina) as the OIG recommended.
20110516-11-P-0228.pdf
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                           May 16, 2011

MEMORANDUM

SUBJECT:	 EPA Should Reduce Unliquidated Obligations Under
          Expense Reimbursement Grants
          Report No. 11-P-0228


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Gwendolyn Keyes Fleming
               Regional Administrator, Region 4

               Susan Hedman         

               Regional Administrator, Region 5           



This is our report on unliquidated obligations under water program assistance agreements
conducted by the Office of Inspector General (OIG) of the U.S. Environmental Protection
Agency (EPA). This report contains findings that describe the problems the OIG has identified
and corrective actions the OIG recommends. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position on the subjects reported. Final
determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $186,391.

Action Required

Recommendation 2, addressed to the Regional Administrator, Region 5, is in a closed status for
reporting purposes; therefore, that Regional Administrator does not need to respond further to this
report. Recommendation 1, addressed to the Regional Administrator, Region 4, is still in an open
status. Therefore, in accordance with EPA Manual 2750, the Regional Administrator, Region 4, is
required to provide a written response to the findings and recommendations in this report within
90 calendar days of the report date. The response should include a corrective actions plan for
agreed-upon actions, including milestone dates. The response will be posted on the OIG’s public
website, along with our memorandum commenting on the response. The response should be
provided as an Adobe PDF file that complies with the accessibility requirements of Section 508 of
the Rehabilitation Act of 1973, as amended. The final response should not contain data that should
not be released to the public; if the response contains such data, the data for redaction or removal
should be identified. We have no objections to the further release of this report to the public. We
will post this report to our website at http://www.epa.gov/oig.

If you or your staff, have any questions regarding this report, please contact Paul Curtis at
(202) 566-2523 or curtis.paul@epa.gov, or Meg Hiatt at (513) 487-2366 or
hiatt.margaret@epa.gov.
EPA Should Reduce Unliquidated Obligations                                                                                      11-P-0228
Under Expense Reimbursement Grants




                                       Table of Contents 

 Purpose...........................................................................................................................    1


 Background ....................................................................................................................       1


 Scope and Methodology ...............................................................................................                 2


 Results of Review ..........................................................................................................          2


 Recommendations .........................................................................................................             5


 Agency Comments and OIG Evaluation ......................................................................                             5


 Status of Recommendations and Potential Monetary Benefits.................................                                            6




 Appendices
  A      Details on Scope and Methodology ....................................................................                         7


 B       ERG Obligations by State and Region ................................................................                          9


 C       Region 4 Response to Draft Report.....................................................................                       10 


 D       Region 5 Response to Draft Report.....................................................................                       12 


 E       Distribution ............................................................................................................    14 

Purpose

            The purpose of this audit was to determine whether the U.S. Environmental
            Protection Agency (EPA) has adequately monitored obligations on operator
            certification expense reimbursement grants (ERGs). Our objectives were to
            answer the following questions:

               •	 What is the status of utilization of the ERG funds?
               •	 Are there impediments that recipients face in utilizing the funds and what
                  has EPA done to facilitate reaching the target of expending ERG funds by
                  December 2012?
               •	 Are there ERG dollars that can be deobligated?

Background
            Section 1419 of the Safe Drinking Water Act (SDWA), 42 U.S.C. § 300g-8,
            provides that EPA shall reimburse the states through grants for the costs of
            training and certification of persons operating community and nontransient
            noncommunity water systems serving 3,300 persons or less. The SDWA requires
            states to adopt and implement a program for operator certification or face having
            20 percent of their Drinking Water State Revolving Funds (DWSRF) withheld.

            Under ERGs awarded to states, EPA provided reimbursement for training and
            certification costs of persons operating community and nontransient
            noncommunity water systems serving 3,300 persons or fewer that are required to
            undergo training pursuant to operator certification final guidelines. Each state was
            to receive an amount sufficient to cover the reasonable costs for training all such
            operators. EPA determined the amount each state received to cover the reasonable
            costs for training. Pursuant to 42 U.S.C. § 300g-8, the grants are first to be used to
            provide reimbursement for training and certification costs of persons operating
            community and nontransient noncommunity water systems serving 3,300 persons
            or fewer; when a state has been reimbursed all such costs, the state might, after
            giving notice to the EPA Administrator, use any remaining funds from the grant
            for any of the other purposes authorized for capitalization grants under the
            DWSRF. In using the remaining funds for the DWSRF, the state would have to
            provide 20 percent in matching funds. See 42 U.S.C. § 300j-12.

            The total potential grant amount that EPA estimated was $134,330,540. EPA
            determined that 65,209 water systems constituted the inventory of eligible
            systems, based on the Safe Drinking Water Information System inventory as of
            July 2000. To allocate the funds, EPA developed percentages based on the ratio of
            each state’s number of eligible systems to the total of 65,209 systems.

            Since the award of the ERGs, EPA has become aware of the length of time some
            of the grants have been outstanding. EPA awarded some of the grants from
            September 2001 through August 2004. On March 10, 2009, the Director,


11-P-0228                                                                                        1
            Drinking Water Protection Division, Office of Water, issued a memorandum to
            the regional Drinking Water Program Managers setting an end date for the ERGs.
            The Director noted that some of the grants had been outstanding for 8 years. In
            consultation with regional offices, the Director established December 2012 as the
            project end date for the grants.

Scope and Methodology
            We conducted our audit from January 21, 2010, to March 11, 2011, in accordance
            with generally accepted government auditing standards issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our conclusions based on
            our audit objectives.

            We selected for review 19 ERGs awarded by the following regions:

               •    Region 2 (grants to New Jersey, New York, Puerto Rico, and
                    U.S. Virgin Islands)
               •	   Region 3 (grants to Maryland and West Virginia)
               •	   Region 4 (grants to Georgia, Kentucky, Mississippi, North Carolina, and
                    Tennessee)
               •	   Region 5 (grants to Illinois, Indiana, Michigan, Ohio, and Wisconsin)
               •	   Region 9 (grants to Arizona, California, and Nevada)

            We selected our samples based on the largest percent and amount of unliquidated
            obligations. The sample included ERGs from regions whose unliquidated
            obligations were at least 10 percent of the total unliquidated obligation amount for
            all open ERGs. We also selected Region 3 because of concerns over the ERG
            grants the project officer expressed during the audit of unliquidated obligations
            under water program agreements. We interviewed EPA Water Protection Division
            project officers, ERG technical specialists, and state/territory officials for the
            19 agreements reviewed. We reviewed project files (e.g., awards, amendments,
            work plans, and annual plans) obtained from EPA program and state/territory
            officials. Appendix A contains further details on our scope and methodology.

Results of Review
            We identified $6.6 million of potentially unneeded funds that could have been
            deobligated for three ERGs awarded by EPA Regions 4 and 5 ($3.3 million for
            Georgia, $2.3 million for North Carolina, and $1.0 million for Wisconsin). As a
            result:

               •	 Region 4 deobligated over $3.3 million in unneeded funds from the
                  Georgia ERG and closed the grant in March 2011. According to Region 4,


11-P-0228                                                                                     2
                   North Carolina signed an amendment on March 21, 2011, to extend the
                   project period end date to January 1, 2012, to allow them to use the
                   remaining $2.3 million.

               •	 Region 5 deobligated about $2.2 million from the Wisconsin grant in
                  February 2011 with about $600,000 remaining. Region 5 responded that it
                  extended the grant ending period from June 30, 2011, to December 31,
                  2012, to allow Wisconsin to use the remaining funds.

            Since EPA began awarding ERG funds in 2001, many recipients have made
            minimal expense reimbursements for training and certification expenses for water
            system operators. We found that states are not adequately utilizing ERG funds to
            provide training and certification to water system operators in accordance with the
            requirements of the operator training and certification program. States faced
            numerous impediments in spending the funds, such as staff shortages, global
            recession, hiring freezes, higher priority water projects, and underperforming
            contractors.

            According to EPA’s Final Additions to the Final Guidelines for the Certification
            and Recertification of the Operators of Community and Nontransient
            Noncommunity Public Water Systems (Federal Register/Vol. 66, No. 75, April 18,
            2001), “After a state has reimbursed all costs pursuant to section 1419(d)(1), the
            state may, after notice to the Administrator of EPA, use any remaining funds from
            the grant for any of the other purposes authorized for capitalization grants under
            section 1452 of the SDWA.”

            Details on what we found by state follow.

            Georgia (in Region 4)

            We determined that the Georgia Department of Natural Resources (GDNR) had
            $3.3 million of unliquidated obligations remaining on its ERG available for
            deobligation as of November 18, 2010. EPA awarded the ERG grant to GDNR on
            April 29, 2003, and the project period ends June 30, 2011. GDNR experienced
            delays in spending ERG funds due to staffing shortages (an unfilled vacancy in
            the grant assistant position). We found that GDNR has spent a total of $280,000
            under its operator training and certification program out of $3.6 million awarded.
            After we issued our draft report on March 11, 2011, Region 4 initiated corrective
            action on March 17, 2011, to deobligate over $3.3 million in unneeded funds from
            the Georgia ERG and closed the grant.

            North Carolina (in Region 4)

            As of November 18, 2010, the North Carolina Department of Environment,
            Health, and Natural Resources (NCDEHNR) had approximately $3.8 million of
            unliquidated obligations remaining on its ERG, of which we determined that



11-P-0228                                                                                    3
            $2.3 million was available for deobligation. NCDEHNR received the ERG award
            on January 15, 2003, and the project period ended January 1, 2011. NCDEHNR
            experienced delays in spending ERG funds due to state spending constraints.
            After we issued our draft report on March 11, 2001, North Carolina signed an
            amendment to extend the project period end date to January 1, 2012, to allow
            them to use the remaining $2.3 million.

            Wisconsin (in Region 5)

            As of November 18, 2010, the Wisconsin Department of Natural Resources
            (WDNR) had approximately $2.9 million of unliquidated obligations remaining
            on its ERG potentially available for deobligation. WDNR received the ERG
            award on September 4, 2003. WDNR experienced delays in spending ERG funds
            because of limited staff resources, a hiring freeze, project complexities, and
            technological issues. Wisconsin’s ERG totaled $4.1 million, and the state declared
            in its Technical Performance Report, dated September 28, 2007, that it had largely
            met the goal of training and certifying operators of small water systems. On
            September 30, 2009, WDNR estimated that total grant expenditures would be
            $3.1 million, or 76 percent of the funds. In response to our inquiries, WDNR said
            it will request that the remaining amount, estimated at about $1 million
            ($4.1 million minus $3.1 million), be transferred with its 20 percent match to the
            DWSRF. Region 5 and WDNR agreed that WDNR did not need the $1 million.
            Subsequently they determined that Region 5 could deobligate about $2.2 million,
            and Region 5 did so on February 15, 2011. In its response, to our draft report,
            Region 5 stated that the grant ending period would be extended to December 31,
            2012, to allow WDNR to use the remaining funds (approximately $600,000).
            Region 5 further stated it will closely monitor the activities planned under the
            remaining project period, and if activity appears to stall it will work with the state
            to deobligate additional funds at that time.

            Results for Other States

            Other states have not spent all of the funds awarded on their grants. For example,
            as of November 18, 2010, New Jersey had used only $353,116 of the $2,673,880
            obligated in 2002, and Maryland had used $519,279 of the $2,109,343 obligated
            in 2003. However, we found that both states intend to spend the remaining funds
            by the December 2012 deadline. To expedite spending the remaining ERG funds,
            we found that:

               •	   Some states are looking to extend grant periods to December 2012.
               •	   Some states spent funds to develop databases and information systems.
               •	   New Jersey and Ohio plan to establish internships to use remaining funds.
               •	   Some states plan to award contracts to spend the remaining funds.
               •	   California increased operator participation in the program and developed
                    additional training courses.



11-P-0228                                                                                       4
Recommendations
            We recommend that the Regional Administrator, Region 4:

               1.	 Direct the region’s Water Protection Division Director to deobligate the
                   $3.3 million of unneeded funds for Georgia and monitor North Carolina’s
                   spending of the remaining funds through the end of the grant period and
                   deobligate any unused funds to the DWSRF.

            We recommend that the Regional Administrator, Region 5:

               2.	 Direct the region’s Water Protection Division Director to continually
                   monitor Wisconsin’s spending of the remaining funds through the end of
                   the grant period and deobligate any unused funds to the DWSRF.

Agency Comments and OIG Evaluation
            In a memo dated April 14, 2011, Region 4 stated that it did not concur with the
            proposed recommendations for Georgia and North Carolina. Region 4 stated it did
            not concur because it signed an amendment with North Carolina extending the
            project period end date to January 1, 2012, and initiated the process to deobligate
            $3.3 million from the Georgia ERG. We commend Region 4 for actions taken to
            deobligate unneeded funds of over $3.3 million from the Georgia ERG and
            extending the project period for the North Carolina ERG. The OIG agrees that
            extending the grant period through January 1, 2012, would allow North Carolina
            additional time to use the $2.3 million remaining on the ERG. Region 4 should
            continue to monitor North Carolina’s use of the remaining funds through the grant
            end date and take actions to deobligate and redirect any remaining funds to the
            DWSRF.

            In a memo dated April 8, 2011, Region 5 stated it did not concur with our
            recommendation to deobligate $1 million from Wisconsin’s ERG. However,
            Region 5 deobligated approximately $2.2 million and extended the project end
            date to December 31, 2012. We commend Region 5 for actions taken to
            deobligate unneeded funds and reduce the available funds to about $600,000 for
            use through December 31, 2012. The OIG agrees that extending the grant period
            through December 31, 2012, would allow Wisconsin additional time to use the
            remaining ERG funds. Region 5 also committed to continue to monitor
            Wisconsin’s use of the remaining funds through the grant end and take actions to
            deobligate and redirect any remaining funds to the DWSRF.




11-P-0228                                                                                      5
                                 Status of Recommendations and
                                   Potential Monetary Benefits


                                                                                                                           POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1      Action Official           Date      Amount      Amount

     1        5     Direct the region’s Water Protection Division           O       Regional Administrator,                 $3,300
                    Director to deobligate the $3.3 million of unneeded                   Region 4
                    funds for Georgia and monitor North Carolina’s
                    spending of the remaining funds through the end of
                    the grant period and deobligate any unused funds
                    to the DWSRF.

     2        5     Direct the region’s Water Protection Division           C       Regional Administrator,   2/15/2011     $2,200
                    Director to continually monitor Wisconsin’s                           Region 5
                    spending of the remaining funds through the end of
                    the grant period and deobligate any unused funds
                    to the DWSRF.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0228                                                                                                                                         6
                                                                                       Appendix A

                   Details on Scope and Methodology
We obtained the universe of all ERGs from the Office of the Chief Financial Officer’s Las Vegas
Finance Center, which accounts for grant expenditures. The Las Vegas Finance Center used the
Agency’s Financial Data Warehouse to select the agreements starting with the identifier “CT”
(operator certification expense reimbursement grants) in the agreement number. The selected
universe consisted of all ERGs awarded as of March 10, 2010. Our universe consisted of
53 agreements with total obligations of $119,583,344. Of that amount, $46,104,904 was
outstanding (unliquidated).

We excluded ERGs in certain regions because they had unliquidated obligation amounts that did
not meet the criteria or because we had reviewed the ERGs during preliminary research and
found no reportable issues. To select regions for review, we identified the regions with the most
unliquidated obligations. We selected Regions 2, 3, 4, 5, and 9 using that criterion. The
population of these agreements numbered 38. To select agreements for review, we identified
those states and territories with the largest amounts of unliquidated obligations for the selected
regions. We selected 19 ERGs, with $58,686,821 in total obligations and $29,031,674 in
unliquidated obligations as of November 18, 2010, from the following states/territories; a
breakdown of the obligations is in appendix B:

    •   Arizona            •   Kentucky            •    New Jersey      •     Puerto Rico
    •   California         •   Maryland            •    New York        •     Tennessee
    •   Georgia            •   Michigan            •    North           •     West Virginia
    •   Illinois           •   Mississippi              Carolina        •     Wisconsin
    •   Indiana            •   Nevada              •    Ohio            •     U.S. Virgin Islands

Prior Reviews

We researched prior EPA Office of Inspector General (OIG) and U.S. Government
Accountability Office reports related to the assistance agreements. We noted five pertinent
EPA OIG reports, as listed in table A-1.

Table A-1: Prior EPA OIG reports related to assistance agreements
  Report No.                                    Title                                      Date
 2007-2-00003      Information Concerning Superfund Cooperative Agreements         October 30, 2006
                   with New York and New Jersey
 08-2-0099         Followup on Information Concerning Superfund Cooperative        March 4, 2008
                   Agreements with New York and New Jersey
 08-P-0265         EPA Should Continue Efforts to Reduce Unliquidated              September 16, 2008
                   Obligations in Brownfields Pilot Grants
 09-N-0150         EPA's Unliquidated Obligations for Grants                       May 1, 2009
 10-P-0081         EPA Needs Procedures to Address Delayed Earmark Projects        March 22, 2010
Source: OIG analysis.




11-P-0228                                                                                             7
Internal Control Structure

In planning and performing our audit, we reviewed management controls related to our audit
objectives. We examined EPA’s fiscal year 2009 Federal Managers’ Financial Integrity Act
Annual Assurance Letters issued by the Regional Administrators and Assistant Administrators
for the various EPA program offices to identify any weaknesses pertaining to the unliquidated
obligations under assistance agreements. In addition, we examined EPA’s Office of Management
and Budget Circular A-123 reviews of internal controls to identify any weaknesses related to
unliquidated obligations under assistance agreements. EPA identified no material weaknesses in
its Circular A-123 reviews related to assistance agreements. We did not review the internal
controls over EPA’s Integrated Financial Management System, Financial Data Warehouse, or
Office of the Chief Financial Officer Reporting and Business Intelligence Tool from which we
obtained information, but relied on the review conducted during the audit of EPA’s fiscal
year 2009 financial statements.




11-P-0228                                                                                    8
                                                                                     Appendix B


            ERG Obligations by State and Region

                                                                    Unliquidated
                                                Total obligations    obligations
                       State        Region       as of 11/18/10     as of 11/18/10

            New Jersey                  2              $2,673,880       $2,320,764
            New York                    2              $6,715,600       $3,426,607
            Puerto Rico                 2                $735,420         $268,055
            U.S. Virgin Islands         2                $620,000         $603,811
            Maryland                    3              $2,109,343       $1,590,064
            West Virginia               3              $1,437,900         $857,046
            Georgia                     4              $3,613,198       $3,332,813
            Kentucky                    4                $665,400          $78,672
            Mississippi                 4              $2,404,000         $316,067
            North Carolina              4              $5,739,200       $3,713,071
            Tennessee                   4                $920,800         $194,116
            Illinois                    5              $3,753,300         $854,270
            Indiana                     5              $1,695,000         $339,239
            Michigan                    5              $6,213,000       $1,257,283
            Ohio                        5              $4,577,300       $3,144,295
            Wisconsin                   5              $4,136,480       $2,860,952
            Arizona                     9              $1,874,600         $532,634
            California                  9              $8,058,700       $3,248,101
            Nevada                      9                $743,700          $93,814
                                                      $58,686,821      $29,031,674

            Source: OIG analysis and data provided by EPA.




11-P-0228                                                                                     9
                                                                                        Appendix C

                  Region 4 Response to Draft Report
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                              REGION 4 

                                      ATLANTA FEDERAL CENTER 

                                         61 FORSYTH STREET 

                                     ATLANTA. GEORGIA 30303-8960


                                         APR 1 4 2011

MEMORANDUM

SUBJECT:       EPA Region 4 Response to Draft Audit Report:
               EP A Should Reduce Unliquidated Obligations Under
               Expense Reimbursement Grants
               Project No. 2010-1183

FROM:          Gwendolyn Keyes /s/
               Regional Administrator

TO:            Melissa Heist
               Assistant Inspector General for Audits

       This is the response to the March 11, 2011, draft report issued by the Office of Inspector
General on unliquidated obligations under water program assistance agreements.

        The information included in the draft audit report regarding the unliquidated obligations
remaining available for deobligation from the Operator Certification Expense Reimbursement
Grants (ERGs) for Georgia ($3.3 million) and North Carolina ($2.3 million) was accurate as of
November 18, 2010, based on the audit conducted during spring 2010. However, we do not concur
with the proposed recommendation to deobligate $3.3 million for Georgia and $2.3 million for North
Carolina based upon the corrective actions that have been initiated by Region 4 as outlined in the
Attachment (Status of Region 4 Recommendations).

        Corrective actions have been taken to deobligate funds in the Georgia ERG and roll them
back into the State's Revolving Fund. In the case of North Carolina's ERG, Region 4 granted a one
year no cost extension. The extension was granted to allow North Carolina sufficient time to
complete two major tasks under their ERG workplan. One task is the development of software and
purchase of hardware for electronic testing. The second task is the development of software for
online payment of operator fees. North Carolina was not able to complete these tasks within the
original grant project period primarily due to several freezes on spending mandated by the Governor.

       If you or your staff have any questions regarding this response, please contact Jim Giattina at
(404) 562-9470.

Attachment



11-P-0228                                                                                           10
                          Status of Region 4 Recommendations

                                          RECOMMENDATIONS

Rec.            Subject             Status   Action Official   Completion             Comments
No.                                                              Date
 1     Direct the Region 4            1        Regional          See         GA requested closure &
       Water Protection                      Administrator,    Comments      rollback on 3/5/11. R4
       Division Director to close              Region 4                      Grants PO sent close out
       the GA ERG & rollback                                                 request to R4 GMO 3/21/11.
       the remaining funds                                                   Closeout & deobligation will
       ($3.3 million) into the                                               be processed by R4 GMO.
       DW SRF.
 2     Direct the Region 4            2        Regional         NC signed    Extension was awarded for
       Water Protection                      Administrator,    amendment     the original amount ($5.7
       Division Director to grant              Region 4        on 3/21/11;   million) on 3/15/11
       a 1 – year, no cost                                       Project
       extension for the NC                                    Period End
       ERG to allow state to                                      Date
       spend the remaining                                      01/01/12;
       funds ($3.6 million). NC
       accepted & signed the
       amendment.




11-P-0228                                                                                              11
                                                                                           Appendix D

                   Region 5 Response to Draft Report
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               REGIONS 

                                     77 WEST JACKSON BOULEVARD 

                                         CHICAGO, IL 60604-3590 



                                          APR 0 8 2011
                                                                                REPLY TO THE ATTENTION OF:




MEMORANDUM

SUBJECT:        Region 5 Response to OIG Draft Report "EPA Should Reduce Unliquidated
                Obligations Under Expense Reimbursement Grants"

FROM:           Susan Hedman /s/, Regional Administrator

TO:             Melissa Heist
                Assistant Inspector General
                Office of the Inspector General

Thank you for the opportunity to review your draft report EPA Should Reduce Unliquidated
Obligations Under Expense Reimbursement Grants, Project No. 2010-1183.

Region 5 does not concur with your recommendation to deobligate $1 million from Wisconsin's
Expense Reimbursement grant, as this action is not necessary or even possible. In December
2010, Region 5 and the Wisconsin Department of Natural Resources (WDNR) concluded that some
of the remaining grant funds would not be needed for expense reimbursement and would not be spent
by December 2012, EPA's target program end date. The agencies agreed to deobligate $2.2 million
from the Expense Reimbursement grant and to re-direct these funds to Wisconsin's Drinking Water
State Revolving Fund (DWSRF) program, as allowed and recommended by EPA guidance. EPA also
agreed to change the Expense Reimbursement grant end date from June 30, 2011 to December 31,
2012 to allow WDNR additional time to complete those activities.

On February 15, 2011, EPA deobligated $2.2 million from the Expense Reimbursement grant and
extended the end date for the Expense Reimbursement grant to December 31, 2012, which is
consistent with EPA's target end date for the program. Wisconsin plans to apply for these funds when
the state applies for a fiscal year 2011 DWSRF grant.

As of March 25, 2011, the available funds remaining on the Expense Reimbursement grant are less
than $600,000. Region 5 and Wisconsin believe there is still a need for these remaining funds and
that they will be used over the next 21 months. The state will use the remaining funds to build a
sustainable operator training infrastructure and update its criteria for operator certification. Thus, we
believe no further action to remove funds from this grant is warranted. We will closely monitor the



11-P-0228                                                                                              12
activities planned under the remaining project period. If activity appears to stall, we will work with
the state to deobligate additional funds at that time.




11-P-0228                                                                                                13
                                                                            Appendix E

                                    Distribution
Office of the Administrator
Regional Administrator, Region 4
Regional Administrator, Region 5
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Director, Water Protection Division, Region 4
Director, Water Protection Division, Region 5
Comptroller, Resource Management Division, Region 5
Audit Followup Coordinator, Region 4
Audit Followup Coordinator, Region 5




11-P-0228                                                                           14
